WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

FEB 1 7 2021
OFFICE OF THE CLERK

No. 20-997
Arlane James, et al.
(Petitioners)

v.

Noah Bartelt
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
EX I am not presently a member of the Bar of this Court. Should a response be requested,
the response ill be filed by a Bar em
Signature
Date: FEBRUARY 16, 2021
(Type or print) Name MARVIN L. FREEMAN
50 Mr.
❑ Ms.

❑ Mrs.

0 Miss

Firm STATE OF NEW JERSEY OFFICE OF THE ATTORNEY GENERAL
Address 25 MARKET ST., - P.O. BOX 112 •
City & State TRENTON, NEW JERSEY

Zip 08625-0112

Phone (609)376-2998
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Barbara E. Ransom
Law Office of Barbara E. Ransom
3000 Atrium Way, Suite 200
Mt. Laurel, NJ 08054

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

State of New Jersey
PHILIP D. MURPHY
Governor

OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF LAW AND'PUBLIC SAFETY
DIVISION OF LAW

GURBIR S. GREWAL
Attorney General

SHEILA Y. OLIVER
Lt. Governor

25 MARKET STREET

MICHELLE L. MILLER
Director

PO Box 112
TRENTON, NJ 08625-0112

February 12, 2021

Suprete Court of the United States
. Attn: Clerk of Court
One 1st Street N.E
Washington, D.C. 20543
Re: Arlene JaMes,'et al v. - Noah Bartelt
'Docket No. 20-997
Dear Clerk:
Enclosed please find- an original and one copy of
Defendant's Waiver with reference to the above.matter.
Sincerely yours;
GURBIR S. GREWAL
ATTORNEY GENERAL OF NEW JERSEY

By:

VAVU."&t. 4. 907,,eattela
Marvin L. Freeman
Deputy Attorney General

MLF:tm.
Enc.
C: Barbara E.. Ransom, Esquire

RECEIVED
FEB 2 4 2021
CFREMORTEIK

HUGHES JUSTICE COMPLEX • TELEPHONE: (609) 376-3998 • FAX: (609) 777-3607

New Jersey Is An Equal Opportunity Employer • Printed on Recycled Paper and Recyclable

